U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

March 3, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Robert M. Sellers v. Denis R. McDonough, Secretary of Veterans Affairs
S.Ct. No. 20-1148

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on February 12,
2021, and placed on the docket on February 22, 2021. The government’s response is due on
March 24, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including April 23, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

20-1148
SELLERS, ROBERT M.
DENIS R. MCDONOUGH, SECRETARY OF
VETERANS AFFAIRS

MELANIE LYNN BOSTWICK
ORRICK, HERRINGTON & SUTCLIFFE LLP
1152 15TH STREET, NW
WASHINGTON, DC 20005
202-339-8483
MBOSTWICK@ORRICK.COM
JOHN F. CAMERON
250 COMMERCE STREET
MONTGOMERY, AL 36124
KENNETH M. CARPENTER
CARPENTER, CHARTERED
1525 SOUTHWEST TOPEKA BOULEVARD
PO BOX 2099
TOPEKA, KS 66601
785-357-5251
KMCARPENTER@MINDSPRING.COM
ABIGAIL COLELLA
ORRICK, HERRINGTON & SUTCLIFFE LLP
51 WEST 52ND STREET
NEW YORK, NY 10019

